                      0


      DOD YEAR 2000 COMPUTING PROBLEM REPORTS:
    LESSONS LEARNED FROM THE DEFENSE INTEGRATION
               SUPPORT TOOLS DATABASE


Report No. 98-169                         June 29, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG. OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D .C. 20301- 1900. The identity of each writer and caller
  is fully protected.




Acronyms

DIST   Defense Integration Support Tools
CIO    Chief Information Officer
OMB    Office of Management and Budget
Y2K    Year 2000
                                 INSPECTOR    GENERAL
                                DEPARTMENT   OF DEFENSE
                                  400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202


                                                                           June 29, 1998




MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND,
               CONTROL, COMMUNICATIONS, AND INTELLIGENCE)

SUBJECT: Audit Report on DOD Year 2000 Computing Problem Reports: Lessons
         Learned From the Defense Integration Support Tools Database
         (Report No. 98-169)


       We are providing this audit report for your use. The primary purpose is to
provide the DOD Chief Information Officer and other senior DOD managers with an
independent assessment of the DOD progress related to year 2000 conversion efforts.

        We considered management comments on a draft of this report when preparing
the final report. You concurred with all the draft recommendations.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone at (703) 604-9049 (DSN 664-9049) or
Mr. James W. Hutchinson at (703) 6049060 (DSN 664-9060). See Appendix D for
the report distribution. The audit team members are listed inside the back cover.




                                         Robert J! Lieberman
                                      Assistant Inspector General
                                              for Auditing
                            Offke of the Inspector General, DOD

Report No. 98-169                                                          June 29, 1998
   (Project No. 8AS-0017)

                 DOD Year 2000 Computin Problem Reports:
                Lessons Learned From the b efense Integration
                           Support Tools Database

                                   Executive Summary

Introduction. Information technology systems have typically used two digits to
represent the year, such as “98” representing 1998, to conserve electronic data storage
and reduce operating costs. With the twodigit format, however, the year 2000 is
indistinguishable from 1900. As a result of that ambiguity, computers and associated
systems and application programs that use dates to calculate, compare, and sort could
generate incorrect results when working with years after 1999.

This report is one of a series of reports that the Inspector General, DOD, is issuing in
accordance with an informal partnership with the Chief Information Officer, DOD, to
monitor DOD efforts to address the year 2000 computing challenge.

Audit Objectives. The overall audit objective was to identify significant time-sensitive
issues related to DOD year 2000 reporting requirements and oversight actions and to
quickly report those issues to senior DOD management. Specifically, we evaluated the
problems in managing the Defense Integration Support Tools Database and how DOD
can apply the lessons learned to a replacement database.

Audit Results. Currently, DOD has no viable repository of year 2000 information that
DOD managers can use for tracking, reporting, monitoring, and overseeing DOD year
2000 compliance efforts. Previously, DOD used the Defense Integration Support Tools
Database as the official repository of DOD year 2000 information, but discontinued it
for year 2000 use. Further, DOD managers were unable to rely on the Defense
Integration Support Tools Database for reporting and oversight purposes.
Consequently, DOD managers do not have a DOD-wide automated mechanism for year
2000 reporting and oversight purposes. However, the DOD Chief Information Officer
has recognized the importance of having a DOD-wide inventory of systems for tracking
and reporting year 2000 efforts and has taken action to develop a new database tool to
replace the Defense Integration Support Tools Database for year 2000 use.

Summary of Recommendations. We recommend an immediate replacement database
for the Defense Integration Support Tools Database to track, monitor, report, and
oversee DOD year 2000 efforts. We recommend application of the lessons learned
from the Defense Integration Support Tools Database to the replacement database.
Specifically, the replacement database should provide reliable information for tracking,
monitoring, reporting, and overseeing DOD year 2000 efforts; allow for flexibility to
accommodate changes in external reporting requirements; provide compatibility with
DOD Component internal databases for effective importing of data; and include controls
for entering data to affix responsibility for accuracy at the DOD Component Year 2000
designated office level.

Management Comments. The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) concurred with all recommendations and described
initial actions taken to implement the replacement database and to avoid problems
associated with the prior database. See Part I for a summary of management comments
and Part III for the complete text of the comments.

Audit Response. Management comments were generally responsive. We will track
implementation of the new database and of the reliability of inputs to that database
through our continuing audit oversight of this area, as well as normal audit followup
procedures. No additional comments are required.




                                           ii
Table of Contents

Executive Summary                                                              i


Part I - Audit Results
      Audit Background                                                        2
      Audit Objectives                                                        3
      DOD Year 2000 Reporting and Management Oversight                        4

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                                                 12
        Methodology                                                           12
        Summary of Prior Coverage                                             13
      Appendix B. Comparison of Defense Integration Support Tools
                   Database Data and February 1998 Reports                    14
      Appendix C. Completeness Analysis of the Year 2000 Data Fields in the
                   Defense Integration Support Tools Database                 15
      Appendix D. Report Distribution                                         17

Part III - Management Comments
      Office of the Assistant Secretary of Defense (Command, Control,
         Communications, and Intelligence) Comments                           22
Part I - Audit Results
Audit Background

    The year 2000 (Y2K) problem is the term most often used to describe the
    potential failure of information technology systems to process or perform
    date-related functions before, on, or after the turn of the next century. The
    Y2K problem is rooted in the way that dates are recorded and computed in
    automated information systems. For the past several decades, systems have
    typically used two digits to represent the year, such as “98” representing 1998,
    to conserve electronic data storage and to reduce operating costs. With the two-
    digit format, however, the year 2000 is indistinguishable from 1900, or 2001
    from 1901, and so forth. As a result of the ambiguity, system or application
    programs that use dates to perform calculations, comparisons, or sorting could
    generate incorrect results when working with years following 1999. Calculation
    of Y2K dates is further complicated because the Y2K is a leap year, the first
    century leap year since 1600. The computer systems and applications must
    recognize February 29, 2000, as a valid date.

    Because of the potential failure of computers to run or function throughout the
    Government, the President issued an Executive Order, “Year 2000
    Conversion, n February 4, 1998, making it policy that Federal agencies ensure
    that no critical Federal program experiences disruption because of the Y2K
    problem. The Executive Order also requires that the head of each agency
    ensure that efforts to address the Y2K problem receive the highest priority
    attention in the agency. In addition, the General Accounting Office has
    designated resolution of the Y2K problem as a high-risk area, and DOD has
    recognized the Y2K issue as a material management control weakness area in
    the FY 1997 Annual Statement of Assurance.

    DOD Y2K Management Strategy. In his role as the DOD Chief Information
    Officer (CIO), the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued the “DOD Year 2000 Management
    Plan” (Management Plan) in April 1997. The Management Plan provides the
    overall DOD strategy and guidance for inventorying, prioritizing, fixing, or
    retiring systems, and monitoring progress. The Management Plan states that the
    DOD Chief Information Officer has overall responsibility for overseeing the
    DOD solution to the Y2K problem. Also, the Management Plan makes the DOD
    Components responsible for the five-phase Y2K management process, including
    awareness, assessments, renovations, validations, and implementation actions.
    The Management Plan includes a description of the five-phase Y2K
    management process.

    The Assistant Secretary of Defense (Command, Control, Conmmn.ications, and
    Intelligence) is in the process of issuing an updated DOD Management Plan,
    which accelerates the target completion dates for the renovation, validation, and
    implementation phases.

    In a memorandum dated January 20, 1998, for the heads of executive
    departments and agencies, the Office of Management and Budget (OMB)



                                        2
     established a new target date for March 1999 for implementing corrective
     actions to all systems. The new target completion dates are September 1998 for
     the Renovation phase and January 1999 for the Validation phase.



Audit Objectives

     The primary objective of the audit is to identify significant time-sensitive issues
     related to DOD Y2K reporting requirements and oversight actions and to quickly
     report those issues to senior DOD management. Specifically, we evaluated the
     problems in managing the Defense Integration Support Tools Database (DIST)
     and how DOD can apply the lessons learned from the DIST to a replacement
     database. See Appendix A for a discussion of the scope and methodology and
     for a summary of prior coverage.




                                          3
           DOD Year 2000 Reporting and
           Management Oversight
           Currently, DOD has no viable repository of Y2K information that DOD
           managers can use for tracking, reporting, monitoring, and overseeing
           DOD Y2K compliance efforts. Previously, DOD used the DIST as the
           official repository of Y2K information, but discontinued it for Y2K use
           because of national security concerns. Further, DOD managers were
           unable to rely on DIST data for reporting and oversight purposes. The
           DIST was unreliable because the data were incomplete and inconsistent
           with the DOD Component quarterly reports. Consequently, DOD
           managers do not have a DOD-wide automated mechanism for Y2K
           reporting and oversight purposes. However, the DOD CIO has
           recognized the importance of having a DOD-wide inventory of systems
           for tracking and reporting Y2K efforts and has taken action to develop a
           new database tool to replace the DIST for Y2K use. The new database
           tool may also encounter data unreliability unless DOD applies the lessons
           learned from the DIST.



Recent Developments

    The DOD CIO designated the DIST as the official repository of Y2K
    information for DOD. The DOD CIO intended the DIST to be used by DOD
    managers to track and monitor the transition to Y2K compliance for mission-
    critical and other designated systems. The DIST was an unclassified system
    until February 4, 1998, when the DOD CIO issued a memorandum classifying
    DIST data as secret. The decision was based on a National Security Agency
    review that determined that the vulnerability of the information in the DIST was
    a threat to national security, and on March 20, 1998, the DOD CIO decided
    that DOD would no longer use the DIST for Y2K data reporting requirements.
    Some DOD Components relied heavily on the DIST to track and report Y2K
    efforts and may be severely impacted until a replacement alternative to the DIST
    is developed.



Lessons Learned From the DIST

    In developing the new database tool to replace the DIST for Y2K use, DOD
    should apply the lessons learned from the DIST. The DOD used the DIST only
    minimally for reporting and oversight purposes because the data were
    unreliable. Specifically, DIST data were incomplete and inconsistent with the
    DOD Component quarterly reports.

    Reporting Requirements. The DOD CIO requires quarterly reports from the
    DOD Components to obtain the information needed for the OMB report. The




                                       4
                      DOD Year 2000 Reporting and Management Oversight

CIO had intended to use the DIST as a more effective, automated means of
collecting Y2K information. However, DOD CIO staff stated that they did not
use the DIST for OMB reporting because the data were unreliable.

          OMB Reporting Requirements. The OMB requires DOD to submit
a Y2K status report on a quarterly basis, due on the 15th of February, May,
August, and November through 1999. The report provides OMB with a status
of DOD Y2K compliance efforts and provides progress information to Congress
and the public. To collect the information for the OMB report, the DOD CIO
requires DOD Components to submit a report to the DOD CIO on a quarterly
basis, due on the 18th of January, April, July, and October through 1999.

          Changes in OMJ3 Reporting Requirements. On January 20, 1998,
OMB changed the Y2K reporting requirements for the quarterly reports. The
OMB revised previous reporting requirements, established on May 5, 1997, by
adding requirements for data exchanges, contingency planning, Govemment-
wide systems, and other evidence of progress. The DIST replacement database
needs to be flexible to allow for unexpected changes in OMB reporting
requirements.

Reliability of DIST Data. We performed several analyses to determine the
reliability of DIST data. Specifically, we analyzed DIST data for completeness
of data fields and for consistency as compared with the February 1998 quarterly
reports. The analyses showed that DIST data were inconsistent and incomplete
for most DOD Components.

           Consistency of DIST Data. We reviewed mission-critical system
data in the DIST for 15 DOD Components. The 15 DOD Components
represented 2,014 of the 2,915 total mission-critical systems reported by DOD in
the February 1998 quarterly report to OMB. Using the same timeframe, we
compared DIST data with the February 1998 reports for the 15 DOD
Components. We extracted the DIST data on January 21, 1998, and the DOD
CIO received the quarterly reports between January 15 and January 23, 1998.
Of the 15 DOD Components reviewed, our analysis showed the following
discrepancies.

           l  Of the 15 DOD Components, 14 had an inconsistent number of
mission-critical systems in the DIST and the quarterly reports. For example,
the Air Force reported 191 mission-critical systems in the DIST and 472
mission-critical systems in the February 1998 report.

           l  Of the 15 DOD Components, 10 had an inconsistent number of
Y2K-compliant mission-critical systems in the DIST and the quarterly reports.
For example, the Defense Information Systems Agency reported
36 Y2K-compliant mission-critical systems in the DIST and 21 Y2K-compliant
mission-critical systems in the February 1998 report.

           l  Of the 15 DOD Components, 13 had an inconsistent number of
mission-critical systems in the renovation, validation, implementation, and
completed phases in the DIST and the quarterly reports. For example, the
Army reported 11 mission-critical systems in the renovation phase in the DIST
and 92 mission-critical systems in the renovation phase in the February 1998
report.



                                   5
DOD Year 2000 Reporting and Management Oversight

         We considered the differences in the data in the DIST and the quarterly reports
         to be material. See Appendix B for the details of the analysis.

                   Completeness of DIST Data. We reviewed the Minimum Required
         Data Elements Completeness Report* (the Report) to determine the percentage
         of complete fields in the DIST. According to the Report, the average
         percentage of complete Y2K data fields in the DIST was 59 percent, as of
         February 4, 1998. The Y2K fields that had the lowest percentage of
         completeness were as follows:

                              Y2K Field in the DIST                      Percent Comulete

                              Actual Termination Date                               0.5

                              Planned Termination Date                              14

                              Hardware Cost                                        47

                              Software Budget Shortfall                            54

        According to DIST staff, the Report deemed data fields incomplete when a
        blank field existed in a data field. The Report was made available to the DOD
        Components to reduce the number of blank fields in the DIST. Details of the
        Report are included in Appendix C.



DIST Editor Survey Results

         To determine the cause of incomplete and inconsistent data, we interviewed
         DIST editors for six DOD Components. DIST editors stated that the data were
         incomplete and inconsistent with the quarterly reports because of the following:

                    l system program managers did not provide timely and accurate
         information to the DIST editors,

                     l   DOD Component internal databases were not compatible with the
         DIST,

                  l  DIST data fields menus did not consistently provide appropriate
        choices for some entries, and

                     l   the DIST needed user-friendly operational improvements.

        System Program Managers. The inconsistency of DIST data and the quarterly
        reports was a result of system program managers reporting inaccurate and
        untimely information to DIST editors. DIST editors stated that they do not
        validate the information received from system program managers to ensure that


* The Minimum Required Data Elements Completeness Report contains a listing of DOD Components
 and shows the percentage of complete data fields for each of the various categories of information in the
 DIST.



                                                    6
                           DOD Year 2000 Reporting and Management Oversight

    accurate and consistent data are entered in the DIST. The system program
    managers are a primary source of information for the status of Y2K compliance.
    The inconsistency of information may have been a result of DIST data not being
    updated in as timely a manner as the information in the quarterly reports.
    Additionally, DIST editors stated as a possible reason for inconsistent data that
    the pressure is on the system program managers to report their systems on
    schedule because OMB and DOD have recently moved up the Y2K compliant
    date from November to March 1999.

    Compatible Databases. Some DOD Components maintain an internal database
    for tracking Y2K efforts and import data directly from their database into the
    DIST. Some databases do not effectively import data into the DIST because the
    data fields are not compatible with the DIST data fields. For example, the
    Air Force uses an internal database, called the Air Force Automated System
    Inventory Database, to track Y2K efforts. The Air Force database does not
    contain two DIST fields, “Application Compliant” and “Application Compliant
    Date. ” As a result, DIST data are incomplete for the fields. Additionally, the
    Air Force updates the DIST on a monthly basis using a batch file update
    process. The DIST editors for the Air Force stated that the batch update
    process is labor intensive, which reduces the frequency of updates because of
    resource limitations. Untimely updates may cause inconsistencies between
    DIST data and the information in the quarterly reports.

    Appropriate Data Field Menu Choices. The DIST contained data fields that
    had menu choices that were not appropriate for some entries. For example, the
    DIST data fields “Planned Termination Date” and “Actual Termination Date”
    did not provide appropriate menu choices and accepted only a date entry. DIST
    editors stated that they left those fields blank because some systems were not
    planned to be terminated or had not been actually terminated. Entries such as
    “not applicable” or “no” were not accepted by the DIST for those fields.
    Because the DIST contained blank fields, a meaningful completeness analysis of
    data field entries could not be performed. The new replacement database should
    allow for appropriate menu choices to ensure that no blank fields will justifiably
    exist.

    Operational Improvements. DIST editors stated that the DIST needed
    operational improvements to become more user friendly. The most common
    responses from DIST editors were that the DIST needed a user’s manual and a
    faster response time for data entry. DIST editors needed a user’s manual to
    clarify data field definitions and to provide adequate data entry procedures. A
    faster response time would allow for more updates by reducing resources spent
    entering data in the DIST.



Management Actions

    During our audit, management took action to develop a DIST replacement tool
    for managing the DOD Y2K effort. The DOD CIO Y2K program office has
    initiated efforts to establish a database to collect and maintain DOD Y2K
    information. DOD will use the new database to provide external reports to
    OMB and Congress and to provide a current repository of system Y2K data for



                                        7
DOD Year 2000 Reporting and Management Oversight

      oversight purposes. The DOD CIO is aware of the need to implement the
      replacement database, with appropriate controls in place to ensure the integrity
      of the data, as soon as possible.



Conclusion

      The DOD CIO needs to apply the lessons learned from the DIST to the
      replacement database to avoid similar problems of unreliable data. The DOD
      CIO and DOD Components that relied on the DIST will be hampered by its
      absence until a replacement database is fully operational. Although a new
      database is being developed for Y2K, the CIO will still have to rely on each
      DOD Component to provide complete and accurate Y2K data.



Recommendations, Management Comments, and Audit
Response

      We recommend that the k&tant Secretary of Defense (Command,
      Control, Communications, and Intelligence), in the role of the DOD Chief
      Information Officer:

             1. Immediately implement a replacement database for the Defense
                Integration Support Tools Database to track, monitor, report,
                and oversee DOD year 2000 efforts.

             2. Apply the lessons learned from the Defense Integration Support
                Tools Database to the replacement database. Specifically, the
                replacement database should:

                    a. Provide reliable information for tracking, monitoring,
                       reporting, and overseeing DOD year 2000 efforts.

                    b. Provide adequate management controls for data entry to
                       affii responsibility for accuracy at the DOD Component
                       Year 2000 designated office level.

                    c. Allow for flexibility to accommodate changes in Office of
                       Management and Budget reporting requirements.

                    d. Be compatible with DoD Component internal databases
                       for effective importing of data.

                    e. Allow for appropriate menu choices to eliminate blank
                       fields.


     Management Comments. The Office of the Assistant Secretary of Defense
     (Command, Control, Communications, and Intelligence) concurred with all
     recommendations and stated that the office had developed a replacement


                                          8
                      DOD Year 2000 Reporting and Management Oversight

database to track, monitor, and report DOD Y2K efforts at a high level. The      ’
Assistant Secretary also described several initial actions already taken to
implement the replacement database and to preclude recognized operational
weaknesses associated with the DIST. The complete text of management
comments is in Part III of this report.

Audit Response. We consider management comments to be generally
responsive. Draft Recommendation 2. b. included a requirement for a high level
certification of the validity of all data inputs. While citing improved
management controls for data entry, management comments on
Recommendation 2.b. did not address whether those controls include such a
requirement, but noted that all input to the new database would be solely from
the DOD Component designated offices. This clearly affixes responsibility for
data accuracy to those offices. Therefore, we reworded Recommendation 2. b.




                                  9
Part II - Additional   Information
Appendix A. Audit Process
    This report is one in a series of reports being issued by the Inspector General,
    DOD, in accordance with an informal partnership with the DOD CIO, to monitor
    DOD efforts to address the Y2K computing challenge. For a listing of audit
    projects addressing this issue, see the Y2K webpage on IGnet at
    < http://www.ignet.gov > .



Scope

    We reviewed the February 1998 Y2K reports in accordance with CIO reporting
    requirements and the requirements stated in the Management Plan. We
    evaluated DIST data for completeness of the Y2K data fields. We compared the
    DIST data with the February 1998 reports to determine consistency in
    information reported. We interviewed DOD CIO staff who are responsible for
    issuing reporting guidance and collecting the Y2K information from the DOD
    Components and submitting the information to OMB. We interviewed
    authorized DIST editors who are responsible for maintaining systems in the
    DIST, and we interviewed personnel from Electronic Data Services, the
    contractor responsible for the DIST.



Methodology

    Audit Type, Dates, and Stamlards. We performed this economy and
    efficiency audit from January through April 1998 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD. We did not use computer-
    processed data or statistical sampling procedures for this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.

    Management Control Program. We did not review the management control
    program related to the overall audit objective because DOD recognized the Y2K
    issue as a material management control weakness area in the FY 1997 Annual
    Statement of Assurance. In addition, the audit focused on data in a database
    that is no longer used and its control weaknesses would not be included in future
    management control assurance assessments and statements.




                                       12
                                                     Appendix A. Audit Process




Summary of Prior Coverage

    The General Accounting Offke and the Inspector General, DOD, have
    conducted multiple reviews related to Y2K issues. General Accounting Office
    reports can be accessed over the Internet at http: //www .gao.gov. Inspector
    General, DOD, reports can be accessed over the Internet at
    http://www.dodig.osd.mil.




                                      13
Appendix B. Comparison of Defense Integration
Support Tools Database Data and February 1998
Reports
             Mission Critical Y2K Comnliant Renovation     Validation    lmnlementation                 CornDieted
             DIST’ Reports’ DlST’ Reports* DIST’ Reports* DIST1 Reports* DIST’ Reports’                DIST’ Reports’

Air Force       191       472        1    159        75      178            0    29      39       8      65        0
Army           395        376      107    160          11        92         7    14      52      10       0        4
BMDO              6         3       0       0           1         1         1     1       0       0       0        0
DCAA              1         1       0       1          0          0         0     0       0       0       0        0
DeCA             11         9       0       0          6          6         3     3       0       0       0        0
DFAS             86        83       4      12        35          36      10      12       0       0       4        0
DISA             99        98      36      21        38          38         9     9       4       4      14       13
DLA              37        33       0      17          10         6         3     8       5       1      14        1
DSAA              4         6       0       0          3          6         0     0        1      0       0        0
DSWA             15         9       8       2          0          1         0     0       0       2       0       4
JLSC              6         2       0       0          0          0         3     2        1      0       0       0
JS                8         5        1      0          4          3         0     0       0       0       0       0
 PACOM3           3         4       0       0          3          4         0     0       0       0       0       0
Navy4          705        812       8       0     174        191      253       441      25      14     213      135
OSIA              3         2       0       0          0          1         0     0       0       0       0        1

WI-IS?          55         99      24      54        19          25      77      13       9
                                                                                          _       7       0       0
 Total6      1,625      2,014     189     426     379        588      3;;       532     136      46     310      158

BMDO        Ballistic   Missile Defense Organization             DSAA       Defense Security Assistance Agency
DCAA        Defense     Contract Audit Agency                    DSWA       Defense Special Weapons Agency
DeCA        Defense     Commissary Agency                        JLSC       Joint Logistics Support Center
DFAS        Defense     Finance and Accounting                   JS         Joint Staff
            Service                                              PACOM      U.S. Pacific Command
DISA        Defense     Information Systems Agency               OSIA       On-Site Inspection Agency
DLA         Defense     Logistics Agency                         WI-IS      Washington Headquarters Services


‘We extracted the DIST data on January 21, 1998.
Zrhe February 1998 quarterly reports were received by the DOD CIO from January 15 through
Jarmary 23, 1998.
3For the unified commands under Joint Staff, only U.S. Pacific Command had mission-critical systems in
the DIST for which they were listed as the sponsor component.
‘?he Navy listing includes the Marine Corps.
‘Washington Headquarters Services includes several DOD Components, including the Inspector General,
DOD; the Under Secretary of Defense for Personnel and Readiness; and the Under Secretary of Defense
for Acquisition and Technology.
?he totals do not include the Assistant Secretary of Defense for Health Affairs and the DOD intelligence
agencies.




                                                            14
Appendix C. Completeness Analysis of the
Year 2000 Data Fields in the Defense Integration
Support Tools Database

                           Percent of Complete DIST Y2K Data Fields
                                        February 1998

                        Hardware           Software       Application        Application
                        ComDliant         ComDliant       ComDliant        Compliant Date         Phase           Strategy
Air Force                     99                99              44                    4              99               88
ArmY                        100                 73              73                   73              70              76
ASD(HA)                     100               100               99                   94             100             100
BMDO                          33                33              33                   17             100              33
DeCA                        100               100              100                   82             100             100
DFAS                          62                64              94                   69              43             100
DISA                          99                99              99                   86                0               0
DLA                           86                86              86                   78              86              86
DOD IG                      100               100              100                    0                0             50
DSAA                        100               100              100                 100              100             100
JLSC                          17                83             100                 100              100              50
JS                            75                75              88                   75              63              63
Navy                          80                79              78                   71              99              98
OSIA                          67                67              67                   67              67              67
USMC                         87                85               99                   78              97              81
WI-IS                       100               100              100                   69             100              60
Averages*                     90                84              76                   61              85              84




lThe averages are weighted to account for the number of systems that each DOD Component maintains in the
DIST. For example, the Army has 395 systems in the DIST that are 100 percent complete for the Hardware
Compliant data field, while conversely, the On-Site Inspection Agency has 3 systems in the DIST that are 67
percent complete for the same data field. The averages take into account the varying number of systems for each
DOD Component.

                                                       15
Appendix C. Completeness Analysis of the Year 2000 Data Fields in the Defense
Integration Support Tools Database


                                                   Hardware        Software      Planned       Actual
                      Hardware        Software      Budget          Budget     Termination   Termination
                        cost            cost       Shortfall       Shortfall      Date          Date
Air Force                  64             46            65            46             5           0.5
bY                          14            63            63            64             8           1.0
ASD(HA)                    95             95            94            95            97           1.3
BMDO                        17            17            17            17             0           0
DeCA                       36             91            82            82             0           0
DFAS                       94             97            94            94            86           0
DISA                       92             94            91            92            16           0
DLA                        81             81            81            81             0           0
DOD IG                       0             0              0            0            50           0
DSAA                      100           100            100           100           100           0
JLSC                      100           100            100           100             0           0
JS                         75             75            75            75            13           0
Navy                       29             31            28            30             4           0.3
OSIA                       33             33            33            33             0           0
USMC                       55             55            50            53            16           1.3
WHS                        96             96            96            96             0           0
Averages     l             47             54            56            54            14           0.5

ASD(HA)          Assistant Secretary of Defense (Health Affairs)
BMDO             Ballistic Missile Defense Organization
DeCA             Defense Commissary Agency
DFAS             Defense Finance and Accounting Service
DISA             Defense Information Systems Agency
DLA              Defense Logistics Agency
DOD IG           Department of Defense, Inspector General
DSAA             Defense Security Assistance Agency
JLSC             Joint Logistics Support Center
JS               Joint Staff
OSIA             On-Site Inspection Agency
USMC             United States Marine Corps
WI-IS            Washington Headquarters Services




* See footnote on previous page.



                                                       16
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Procurement
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications,             and Intelligence)
   Year 2000 Oversight and Contingency Planning Office
Assistant Secretary of Defense (Public Affairs)


Joint Staff
Director, Joint Staff


Department of the Army
Assistant Secretary of the Army (Financial Management          and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management          and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management         and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force


Unified Commands
Commander    in   Chief,   U.S.   European Command
Commander    in   Chief    U.S.   Pacific Command
Commander    in   Chief    U.S    Atlantic Command
Commander    in   Chief,   U.S    Southern Command
Commander    in   Chief,   U.S    Central Command
Commander    in   Chief,   U.S    Space Command
Commander    in   Chief,   U.S    Special Operations Command


                                                 17
Appendix D. Report Distribution


Unified Commands             (Cont’d)

Commander    in Chief, U.S. Transportation Command
Commander    in Chief, U.S. Strategic Command


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   Chief Information Officer, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations                    and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory Affairs
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following      congressional
committees and subcommittees:

  Senate Special Committee on the Year 2000 Technology Problem
  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Afi%irs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                           18
Part III - Management Comments
Office of Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence) Comments

            OFFICE    OF THE ASSISTANT          SECRETARY         OF DEFENSE
                             6iXG DEFmSE        PENTAGON
                            WASHINGTON,       DC 20301.6ooo

                                 June     10,    1998




     MEMORANDUM FOR   INSPECTOR GENERAL OF THE DEPARTMENT OF DEFENSE

     SUBJECT: Audit Report on DOD Year 2000 Computing Problem
              Reports: Lessons Learned from the Defense Integration
              Support Tools Database (Project No. EAS-OOi7)


          This is in response to your request to review and comment on
     your May 4, 1998, audit report, subject as above. We concur with
     your recormnendationswith comments. We feel that the new Year
     2000 (Y2K) database addresses your recommendations and will
     satisfy basic Y2K tracking requirements

          We request that you incorporate this           memorandum     along with
     the attachment in the final audit report.




     Attachment
                                        Senior Civ'
                                                     Y  No    Y
                                                              an Official




                                          f




                                          20
    Office of Assistant Secretary of Defense (Command, Control,
                    Communications, and Intelligence) Comments




Response to OIG, DoD, Audit Report, "DoD Year 2000 Computing
Problem Reports: Lessons Learned from the Defense Integration
Support Tools Database" IG Project No. 8AS-0017, May 4, 1998.

Rmccmmndrtion  #l: Immediately implement a replacement database
for the Defense Integration Support Tools database to track,
monitor, report and oversee DOD Year 2000 efforts.

Response: We concur with the recommendation and have developed a
replacement database which will track, monitor and report DOD Y2K
efforts at a high level. Steps are being taken to prevent a
repetition of the problems associated with the DIST. The first
round of populating the database occurred in May 1998. On May
28, 1998, the Component representatives met to discuss the data
fields and made basic directional decisions on data field
modifications and response options.

~crmnmdatiorl#2:    Apply the lessons learned from the Defense
Integration Support Tools Database to the replacement database.

Response: We concur. The new database being used for Y2K
tracking is being developed with the contractor that assisted
with the DIST. The use of the former DIST contractor provides
the technical skills and corporate knowledge associated with the
DIST Y2K effort as well as a knowledge of the pitfalls and
dangers that were faced with the DIST effort.

     a.   Provide reliable information for tracking, monitoring,
reporting, and overseeing DOD Year 2000 efforts.

Response: We concur. The new database being used for Y2K
tracking was developed in a joint effort with the JCS, Component
representatives and Y2K Quarterly Report personnel. Input from
OMB was also included. The result is an improved approach to the
tracking of information with the detailed information remaining
in the Component level database.

     b.    Provide adequate management controls for data entry and
require a high-level DOD Component official to certify the
validity of the data.

Response: We concur. The new database has improved controls and
will allow input from the Component Y2K designated offices,
eliminating the number of individual action officers inputting
data through the web.

     C.   Allow for flexibility to accommodate changes in the
Office of Management and Budget reporting requirements.




                                21
Office of Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments




        Response:    we concur.    The new database  maps more directly                to the
        OMB reporting   requirements    and the added data that the OSD                feels
        is important   to collect.     Some of the added data fields,
        specifically   address   future OMB and/or OSD requirements.

              d.    Be compatible   with        DOD Component       internal   databases      for
        effective   importing   of data.

        Response:   We concur.    The Components   internally  maintained
        databases  are being used, for input into the new OSD Y2K
        database.    The Navy is currently   building   it's own database  with
        the requirements   and design  of the OSD Y2K database     as the model.
        Other Components   databases  have been mapped    to feed the Y2K
        database.

                    Allow   for   appropriate      menu   choices     to eliminate    blank
        field::

        Response:     We concur.    At the Component  database  representative
        meeting   held on May 28, 1998, a review     of all  the data fields was
        completed.     Fields that were not of value or appropriate       were
        deleted.    However,   some data fields will remain as blank entries
        in anticipation     of future requirements.




                                                 22
Audit Team Members

This report was prepared by the Acquisition Management   Directorate,   Office of the
Assistant Inspector General for Auditing, DOD.

Thomas F. Gimble
Patricia A. Brannin
Mary Lu Ugone
James W. Hutchinson
Timothy J. Harris
Maria R. Palladino
